SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8013
AMERICA  ASIA PACIFIC  EUROPE

PZIDLICKY@SIDLEY.COM

June 3, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

North American Meat Institute v. Rob Bonta, Attorney General of California et
al., No. 20-1215

Dear Mr. Harris:
Pursuant to Rule 15.5, petitioner North American Meat Institute (“NAMI”) hereby
waives the 14-day waiting period for distribution of the certiorari petition in this case.
The Court called for a response from respondents on April 22, 2021, and respondents
have now filed their briefs in opposition. NAMI anticipates promptly filing a reply brief
explaining why the Court should grant review, but in the event the Court does not receive
the reply brief by June 8, NAMI requests that the petition be distributed without it. Prompt
distribution of the petition will ensure that the Court can consider the petition in this timesensitive matter at the June 24 conference, before the Court recesses for the summer.
Sincerely,
/s/Paul J. Zidlicky
Paul J. Zidlicky
Counsel for Petitioner
cc:

Samuel T. Harbourt
Bruce Andrew Wagman

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

